U.S. Department of                           The Inspector General   Office of Inspector General
Transportation                                                       Washington, DC 20590
Office of the Secretary
of Transportation

June 18, 2010

The Honorable Charles E. Grassley
Ranking Member, Committee on Finance
United States Senate
Washington, DC 20510

The Honorable Tom Coburn
Ranking Member, Permanent Subcommittee
 on Investigations
Committee on Homeland Security and Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senators Grassley and Coburn:

Thank you for your letter of April 8, 2010, regarding your continuing efforts to
support our mission to promote efficiency and effectiveness and prevent fraud, waste,
and abuse in Department of Transportation (DOT) programs. As requested, we are
providing information on the independence necessary to carry out our audits,
evaluations, and investigations. Specifically, you requested that we:

  1. list and describe any instances when the Department resisted and/or objected to
     oversight activities and/or restricted our access to information for the period of
     October 1, 2008, to the present;
  2. provide a biannual report on all closed investigations, evaluations, and audits
     conducted by our office that were not disclosed to the public from
     January 1, 2009, through April 30, 2010;
  3. report whether any Federal official has threatened and/or otherwise attempted to
     impede our ability to communicate with Congress and whether that
     communication concerns the budget or any other matter; and
  4. provide a copy of the recommendations that have not been fully implemented,
     which we also provided to the Ranking Member of the House Committee on
     Oversight and Government Reform.

The information you requested is listed below:


CC-2010-051
                                                                                       2


(1) “Instances when the Department resisted and/or objected to oversight
    activities and/or restricted access to information:”

In general, the Department is very responsive to our requests for information.
However, in a few instances, we experienced minor difficulties obtaining needed
information. Specifically:

 • In February 2009, the Federal Aviation Administration’s (FAA’s) Office of
   Airports initially resisted providing, but ultimately did allow, access to its lengthy
   candidate list of airport projects being considered for American Recovery and
   Reinvestment Act grants. FAA’s rationale for not providing the list was that the
   Agency did not want to face potential second-guessing from Congress and other
   interested parties over those candidates that ultimately might not be selected for
   recovery funding. FAA provided the information on May 13, 2009, after the
   Assistant Inspector General for Aviation and Special Program Audits held several
   discussions with a high-level Agency official and emphasized the Office of
   Inspector General’s authority under the Inspector General Act to receive all
   documents related to an Agency’s decision-making.

 • In September 2009, the Department’s Office of the Chief Information Officer
   (OCIO) altered a key question on our Federal Information Security Management
   Act (FISMA) data call. As a result, the OCIO and the Operating Administrations
   did not provide the required information. To coordinate the preparation and
   receipt of the necessary data, the Assistant Inspector General for Financial and
   Information Technology Audits met several times with Department
   representatives. However, this situation delayed the process by almost a month,
   which made it difficult to meet the November 18, 2009, deadline mandated by the
   Office of Management and Budget for FISMA results. Ultimately, we met the
   deadline, and the Deputy CIO accepted responsibility for what happened, but we
   were unable to ascertain the OCIO’s reasons for altering our data request.
   Subsequently, the new Department CIO, who was not involved in this matter,
   assured us that this would not happen again.

(2) “Biannual report on all closed investigations, evaluations, and audits
    conducted that were not disclosed to the public:”

 • The first enclosure to this letter summarizes our closed, non-public investigations
   for the period January 1, 2009, through April 30, 2010. We can provide additional
   information about any of the closed investigations listed, as requested.

 • If, during the course of our audit work, we identify areas requiring immediate
   attention, we will issue a Management Advisory to the audited DOT agency
   before publicly issuing a full report. These advisories serve as an early warning to
   Department officials so that they can take corrective actions in a timely manner.


CC-2010-051
                                                                                   3


   During the period of January 1, 2009, through April 30, 2010, we issued three
   Management Advisories that were not disclosed to the public, which are listed
   below:

     o July 28, 2009, Management Advisory to the Pipeline and Hazardous Materials
       Safety Administration, Immediate Action Needed To Prevent Unsafe
       Packaging and Transport of Explosives Under Special Permit Numbers 8554,
       11579, and 12677.

     o July 28, 2009, Management Advisory to FAA, FAA’s Contract for the
       Automatic Dependent Surveillance-Broadcast Program.

     o April 7, 2010, Management Advisory to the Pipeline and Hazardous Materials
       Safety Administration, Weaknesses in Safety Oversight of Explosives
       Classified Approvals.

(3) “Instances of Federal officials threatening and/or otherwise attempting to
    impede our office’s ability to communicate with Congress, whether that
    communication concerns the budget or any other matters:”

We have no instances to report regarding any threats or attempted obstruction in our
ability to communicate with Congress on the budget or other matters.

(4) “Outstanding recommendations that have not been fully implemented:”

The second enclosure to this letter lists the number of open recommendations and
their associated cost savings estimates, our top three open recommendations, and the
number of recommendations implemented since January 5, 2009. We provided this
list to the Ranking Minority Member of the Committee on Oversight and Government
Reform on April 23, 2010.

Thank you again for your inquiry and for your continuing efforts to ensure our office
has the necessary means to provide effective oversight. If you have any questions or
need further information, please contact me at (202) 366-1959 or Nathan Richmond,
Director and Counsel for Congressional and External Affairs, at (202) 493-0422.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosures


CC-2010-051
                                                                                                        Enclosure 1
                                                                                                        Page 1 of 2
                             DOT/OIG Closed Investigations, Non-Public

During the period requested, January 1, 2009, through April 30, 2010, we closed
64 investigations that resulted in administrative action and 100 investigations that
were unsubstantiated and/or declined for prosecution and for which no other action
was taken (i.e., administrative or civil). 1 Please see the two charts below for further
details on these investigations.

                           ADMINISTRATIVE ACTIONS
       Aviation    Accident Related                                            1
       Aviation    Certificate Fraud, Aircraft                                 1
       Aviation    Suspected Unapproved Parts-Sale                             2
       Aviation    Substance Abuse/Misconduct                                  1
       Employee    Gratuities (Employee Misconduct)                           31
       Employee    Computer Fraud                                              1
       Employee    Conflict of Interest (Public Corruption, Current Employee) 2
       Employee    Ethics Violation (Misconduct)                               5
       Employee    Extortion                                                   1
       Employee    Misuse of Government Property or Funds                      1
       Employee    Purchase Card Misuse                                        1
       Employee    Time and Attendance Fraud                                   1
       Employee    Transit Benefit Fraud/Abuse                                 1
       Employee    Travel Voucher Fraud                                        1
                   Disadvantaged Business Enterprise/Minority Business
                   Enterprise/Woman Owned Business Enterprise
       Grant       (DBE/MBE/WBE) Fraud                                         2
       Grant       False Statements/Certifications/Claims                      6
       Intrusion   Other                                                       1
       Procurement DBE/MBE/WBE Fraud                                           1
       Procurement False Statements/Certifications/Claims                      1
       Other       Other                                                       2
       Other       Theft of DOT Funds or Property                              1
                   TOTAL                                                      64




1
    In addition, during the period requested, we closed 89 criminal, civil, and Office of Special Counsel Whistleblower
    investigations, which as a general rule are publicly disclosed.
                                                                   Enclosure 1
                                                                   Page 2 of 2
                            UNSUBSTANTIATED
Aviation        Accident Related                                         1
Aviation        Certificate Fraud, Medical                               6
Aviation        Interference or Tampering With an Aircraft               1
Aviation        Suspected Unapproved Parts-Maintenance                   5
Aviation        Suspected Unapproved Parts-Sale                          3
Aviation        Substance Abuse/Misconduct                               1
                Conflict of Interest (Public Corruption, Current
Employee        Employee)                                                3
Employee        Disclosure of Confidential Information                   1
Employee        Ethics Violation (Misconduct)                            5
Employee        Misuse of Government Property or Funds                   3
Employee        Theft                                                    1
Employee        Time and Attendance Fraud                                2
Employee        Transit Benefit Fraud/Abuse                              1
Grant           Anti-Trust, Bid Rigging/Collusion                        2
Grant           DBE/MBE/WBE Fraud                                        5
Grant           Embezzlement                                             3
Grant           False Statements/Certifications/Claims                  15
Grant           Kickbacks                                                1
Grant           Other                                                    2
Grant           Prevailing Wage Violations                               1
Grant           Public Corruption/Extortion                              2
Hazmat          Carriage by Air                                          2
Hazmat          Carriage by Motor Vehicle/Public Highway                 3
Hazmat          PHMSA Cylinders and Packaging                            1
Motor Carrier   Commercial Drivers License Fraud                         2
Motor Carrier   Driver Qualification                                     2
Motor Carrier   Economic Fraud (Committed by Carrier)                    1
Motor Carrier   Household Goods/Moving Companies                         2
Motor Carrier   Log Books                                                1
Procurement     DBE/MBE/WBE Fraud                                        5
Procurement     False Statements/Certifications/Claims                  10
                Federal Acquisition Regulations/FAA Acquisition
Procurement     Management System Violation                             1
Procurement     Other                                                   1
Other           Motor Fuel Excise Tax Evasion                           1
Other           Other                                                   4
                TOTAL                                                 100
                                                                            Enclosure 2
                                                                            Page 1 of 9



U.S. Department of                         The Inspector General   Office of Inspector General
Transportation                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation



April 23, 2010



The Honorable Darrell Issa
Ranking Minority Member
Committee on Oversight and Government Reform
U.S. House of Representatives
Washington, DC 20515

Dear Ranking Member Issa:

This correspondence is in response to your letter of March 24, 2010, requesting that
the Department of Transportation Office of Inspector General (OIG) provide
information on the status of open audit recommendations. Specifically, you requested
the following: the number of open recommendations; estimated cost savings
associated with open recommendations; our top three open recommendations; and the
number of recommendations that have been implemented since January 5, 2009.

As of April 6, 2010, we identified 341 open recommendations, included in 107 audit
reports. Of the 341 open recommendations, 45 recommendations, that were included
in 33 reports, carry an estimated monetary benefit or cost savings. The enclosed
document highlights these 45 recommendations and includes the following
information:

    •   Report Title
    •   Report Number
    •   Date Report Issued
    •   Operating Administration Responsible for Implementing the Recommendation
    •   Description of Recommendation
    •   Questioned Costs
    •   Unsupported Costs
    •   Funds To Be Put To Better Use
    •   Target Action Date (Provided by Operating Administrations)
    •   Remarks


Control No. 2010-043
                                                                          Enclosure 2
                                                                          Page 2 of 9
To determine the three most important recommendations, we assessed the universe of
open recommendations based on whether the recommendation will lead to a
significant impact on safety, a significant financial benefit, or a significant
improvement in the economy or efficiency of the program audited. Using this
criteria, we consider the following to be the three most important open
recommendations.

Significant Safety Issue

• Federal Aviation Administration (FAA): Revise outdated regulations and
  strengthen its oversight of on-demand operators by implementing an interim
  risk assessment oversight process for on-demand operators until the risk-
  based System Approach for Safety Oversight approach is implemented. (On-
  Demand Operators Have Less Stringent Safety Requirements and Oversight than
  Large Commercial Air Carriers, AV2009066, issued on July 13, 2009.)

On-Demand operators—who fly at the request of their customers and operate aircraft
that are configured for 30 or fewer passengers or 7,500 pounds of payload or less—
play a vital role in the Nation's air transportation system. However, regulations are
outdated and the margin of safety needs to be enhanced. FAA concurred with this
recommendation. The target action date for completion was December 31, 2009. We
will contact FAA for a revised action date.

Significant Financial Benefit

• Federal Highway Administration (FHWA): Develop performance goals for
  measuring the effectiveness of State value engineering programs and for
  evaluating Division Office personnel in fulfilling the FHWA and Office of
  Management and Budget requirements for value engineering programs.
  (Value Engineering in the Federal-Aid Highway Program, MH2007040, issued on
  March 28, 2007.)

This recommendation was intended to ensure that required value engineering reviews
of highway projects are conducted and the results are properly used. The use of such
systematic and independently conducted reviews can yield significant savings. Our
2007 report estimated that states could have saved $725 million in Federal funds over
a 4-year period if all required reviews were conducted and more recommendations
were accepted. FHWA concurred with this recommendation. The target action date
for completion is April 30, 2010. We are currently reviewing information provided
by FHWA officials regarding their actions taken to implement this recommendation.




Control No. 2010-043
                                                                            Enclosure 2
                                                                            Page 3 of 9



Significant Program Improvement

• Department of Transportation and Federal Rail Administration (FRA): Develop
  an action plan that lays out the steps that DOT will take or has already taken
  to implement an effective oversight strategy for the Federal Railroad
  Administration's High-Speed Rail Programs. (DOT's Implementation of the
  American Recovery and Reinvestment Act: Continued Management Attention is
  Needed To Address Oversight Vulnerabilities, MH2010024, issued on November
  30, 2009.)

This recommendation addresses the significant vulnerabilities FRA and DOT face in
starting up a new, large, and highly visible $8 billion program for high-speed rail
corridors and intercity passenger rail service. The High-Speed Rail Program
represents a significant organizational transformation for FRA, from a relatively small
agency primarily focused on rail safety issues, to a grant-making agency responsible
for starting up a large, long-term, multibillion-dollar program, which could receive
much public attention and scrutiny. For this new American Recovery and
Reinvestment Act of 2009 program, taking on the responsibilities that come with this
transformation has been a challenge for FRA. Specifically, acquiring sufficient
capacity to effectively manage the program and develop a comprehensive
implementation strategy. The Department concurred with this recommendation. The
target action date for completion is November 30, 2010.

Lastly, between January 5, 2009 and April 6, 2010, we have closed
424 recommendations that were contained in 173 audit reports.

It is important to note that since our last response to the Committee, the Office of the
Secretary (OST) has intensified efforts through the use of multiple tools to ensure that
expeditious and appropriate action is taken on OIG recommendations. These include:

    1. Detailed Progress Tracking – OST produces monthly Recommendation Action
       Tracking System reports that provide useful metrics for tracking their progress
       in closing reports. The report includes specific metrics for resolved and
       unresolved recommendations and older report recommendations. Single Audit
       recommendations are also tracked and highlighted for specific attention.

    2. Single Audit Emphasis – In 2009, DOT redesigned its process for resolving
       and completing action on Single Audits. During the first 3 months of calendar
       2010, increased implementation of this process has significantly cut unresolved
       single audit recommendations, and enabled OST to close almost half of the
       Single Audit recommendations that were pending on December 31, 2009.


Control No. 2010-043
                                                                           Enclosure 2
                                                                           Page 4 of 9


    3. Ten Most Wanted – This listing highlights those reports and recommendations
       most in need of management action throughout the department, focusing
       attention on the actions necessary to better ensure that the balance of pending
       recommendations is current.

    4. Top Management Support – The Deputy Secretary is actively engaged in
       gaining expeditious management action on OIG recommendations. He has
       been working with Administrators to enhance awareness and involvement in
       closing recommendations.


Thank you again for your inquiry and interest. If you have any questions or need
further information, please contact me at (202) 366-1959 or Nathan Richmond,
Director and Counsel for Congressional and External Affairs, at (202) 493-0422.


Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure




Control No. 2010-043
Enclosure 2
Page 5 of 9
Enclosure 2
Page 6 of 9
Enclosure 2
Page 7 of 9
Enclosure 2
Page 8 of 9
Enclosure 2
Page 9 of 9
